IN THE
Supreme Court of the United States
IVAN ALEXANDROVICH VETCHER,
Petitioner,
v.
ICE, ETC AL.
Respondent.

APPENDIX TABLE OF CONTENTS
APPENDIX
APPENDIX A COURT DECISIONS
District Court Decision
District Court’s Decision to motion to Amend
Fifth Circuit Court of Appeals Decision
Denial of En Banc Rehearing
APPENDIX B Immigration Court Hearing Excerpts
ROA 205-208 excerpt from October 27, 2015 IC
14 page excerpt from October 27, 2015 IC
APPENDIX C Responses from defendants denying access to court
ROA

APPENDIX A

Case: 19-10156

Document: 00515727945

Page: 1

Date Filed: 02/01/2021

tHniteb States! Court of Appeals
for tljc Jftftf) Circuit

United States Court of Appeals
Fifth Circuit

FILED
February 1, 2021

No. 19-10156
Summary Calendar

Lyle W. Cayce
Clerk

Ivan Vetcher,
Plaintiff—Appellant,
versus
Immigration and Customs Enforcement (ICE), Supervisors;
Dusty Rowden, ICE Deportation Officer, FNU Ashley, Detention
Officer at Rolling Plains Regional Jail Detention Center,
Marcello Villegas, Warden, Rolling Plains Regional Jail Detention
Center, ICE Officers, LNU/FNU; Jeh C. Johnson, Secretary of
Department ofHomeland Security; Philip T. Miller, Assistant Director
ofField Operations for Enforcement and Removal Operations', FNU
Hernandez, Detention Officer at Rolling Plains Regional Jail Detention
Center-, FNU Ross, Detention Officer at Rolling Plains Regional Jail
Detention Center, ICE Agents, LNU/FNU, ICEA1; ICE Agents,
LNU/FNU, ICEA2; Rolling Plains Regional Jail &
Detention Center Staff; United States Department of
Homeland Security, Supervisors,
Defendants—Appellees.

Appeal from the United States District Court
for the Northern District of Texas
No. 1:16-CV-164

Case: 19-10156

Document: 00515727945

Page: 2

Date Filed: 02/01/2021

No. 19-10156
Before King, Smith, and Wilson, Circuit Judges.
Per Curiam:*
Ivan Vetcher, former immigration detainee #A079570472, filed a civil
action raising claims under Bivens v. Six Unknown Named Agents of Federal
Bureau ofNarcotics, 403 U.S. 388 (1971). He sought declaratory and injunc­
tive relief and compensatory and punitive damages. Vetcher alleged that he
was denied access to the courts; the defendants retaliated against him for the
exercise of his rights; he was denied his right to communication; he was
denied religious rights; he was subject to punitive treatment during his civil
detention; he was subject to cruel and unusual punishment; and some of the
defendants used excessive force against him. He asserted that the defendants
were liable to him in their individual and official capacities.
Except for the claims against Rowden and Villegas regarding alleged
retaliatory transfers, the district court dismissed all of Vetcher’s claims under
28 U.S.C. § 1915(e)(2)(B)(ii) for failure to state a claim for relief and certified
the partial judgment as final under Federal Rule of Civil Procedure 54(b).
Vetcher filed a motion to amend the judgment under Federal Rule of Civil
Procedure 52(b) and a motion to amend the complaint under Federal Rule of
Civil Procedure 15. His motions were denied, and he appeals.
In Vetcher’s notice of appeal, he indicated the intent to appeal the
order denying his Rule 52 motion and his Rule 15 motion and also asserted
that the district court improperly dismissed his claims relating to the denial
of access to courts, which were addressed by the district court in its earlier
ruling. Thus, the issues raised in those motions, including the denial of
access to courts, are properly within the scope of the appeal. See Williams
v. Henagan, 595 F.3d 610, 616 (5th Cir. 2010).

* Pursuant to 5th Circuit Rule 47.5, the court has determined that this opin­
ion should not be published and is not precedent except under the limited circumstances
set forth in 5th Circuit Rule 47.5.4.

2

Case: 19-10156

Document: 00515727945

Page: 3

Date Filed: 02/01/2021

No. 19-10156

In his appellate brief, Vetcher also challenges the dismissal of his
claims relating to punitive treatment in civil confinement, retaliation, and
cruel and unusual punishment. Those claims were dismissed by the district
court in its partial final judgment. Thus, in light of the liberal construction
given to Vetcher’s notice of appeal and brief, those issues are properly before
this court. See id. at 616-18.
Vetcher contends that the district court erred in denying his post­
judgment motion to amend. Because Vetcher had previously amended his
complaint at least once, and because a partial final judgment had issued, he
was not eligible to amend his complaint as a matter of course. See FED. R.
CIV. P. 15(a)(1). Vetcher’s post-judgment motion to amend the complaint
is treated as a motion under Federal Rule of Civil Procedure 59(e). See
Rosenzweigv. Azurix Corp., 332 F.3d 854, 864 (5th Cir. 2003). We review the
denial of the Rule 59(e) motion for abuse of discretion in light of the limited
discretion in Rule 15(a). See id. Because Vetcher’s motion to amend con­
tained facts and arguments that he reasonably could have raised before dis­
missal, he has not shown that the district court abused its discretion in deny­
ing that motion. See Rosenzweig, 332.F.3d at 865; Vielma v. Eureka Co.,
218 F.3d 458, 468 (5th Cir. 2000).
The remaining claims on appeal challenge the dismissal of Vetcher’s
claims that he was denied access to courts; he was subjected to retaliation in
the form of a disciplinary action and a cancelled family visit; he was subjected
to punitive confinement in a civil environment; and he was subjected to cruel
and unusual punishment. We review the dismissal de novo and apply the same
standard of review to dismissals for failure to state a claim under
§ 1915(e)(2)(B)(ii) as for dismissals under Federal Rule of Civil Procedure
12(b)(6). Black v. Warren, 134 F.3d 732, 734 (5th Cir. 1998).
Assuming that Bivens is applicable in the context of Vetcher’s claims

3

Case: 19-10156

Document: 00515727945

Page: 4

Date Filed: 02/01/2021

No. 19-10156

regarding the denial of access to courts and retaliation, he failed to state a
claim for relief. SeePetzold v. Rostollan, 946 F.3d 242,252-54 (5th Cir. 2019).
Vetcher’s conclusory assertions that the law library was inadequate and that
he lacked the proper assistance do not show an actual injury necessary for a
claim of denial of access to courts. See Lems v. Casey, 518 U.S. 343, 351
(1996). Regarding his retaliation claim, he raises conclusory arguments that
he received a harsher punishment than normal for his disciplinary violation,
and he attempts to refute the district court’s finding that the family visit was
cancelled because his stepdaughter violated the rules of the detention facility
by stating that her rule violation was irrelevant. These arguments fail to show
error in the district court’s analysis. Vetcher makes no showing of retaliatory
intent. See Woods v. Smith, 60 F.3d 1161,1166 (5th Cir. 1995).
The district court found that Vetcher’s claims of punitive confine­
ment were subject to dismissal because they involved private employees and
not federal actors and were therefore barred in a Bivens action under Minneci
v. Pollard, 565 U.S. 118, 125-30 (2012). The court further determined that
Vetcher had failed to demonstrate that the conditions were intended to be
punitive.
In his brief, Vetcher does not address the district court’s findings.
Instead, he merely reasserts that he was subject to these conditions. Accord­
ingly, he has waived any challenge to the district court’s determination. See
Brinkmann v. Dali. Cnty. SheriffAbner, 813 F.2d 744, 748 (5th Cir. 1987).
Vetcher’s appellate assertions of cruel and unusual punishment relate
to defendants who were not named in the district court. We will not consider
claims raised against new defendants on appeal. See Stewart Glass & Mirror,
Inc. v. U.S. Auto Glass Discount CtrsInc., 200 F.3d 307, 316-17 (5th Cir.
2000) (“It is a bedrock principle of appellate review that claims raised for the
first time on appeal will not be considered.”). To the extent Vetcher is

4

Case: 19-10156

Document: 00515727945

Page: 5

Date Filed: 02/01/2021

No. 19-10156

renewing a claim against a government entity, his claim is barred. See Moore
v. U.S. Dep’tofAgric, on BehalfofFarmers Home Admin., 55 F.3d 991,995 (5th
Cir. 1995).
.
Vetcher does not challenge the severance and transfer of the claims
relating to his deportation in New York, claims against the defendants in their
official capacities, or claims against the defendants in their individual capa­
cities that the court found were barred under Bivens. He further fails to renew
any claims under the Administrative Procedure Act or his request for injunc­
tive and declaratory relief. Vetcher does not aver that he was subjected to a
polluted water supply, that he was denied his religious rights, or that he was
subjected to excessive force. Thus, those claims are abandoned. See Yohey
v. Collins, 985 F.2d 222, 224-25 (5th Cir. 1983).
The judgment is AFFIRMED.

5

Case l:16-cv-00164-C Document 115 Filed 08/14/19

Page 1 of 2 PagelD 865

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
ABILENE DIVISION
IVAN VETCHERj

§
§

Plaintiff,

§
§

§

v.

CIVIL ACTION NO. 1:16-CV-0164-C

§
§
§
§

MARCELLO VILLEGAS,
Defendant.

§

ORDER
Plaintiff filed a “Motion to Amend Judgement [sic] under Rule 59(e),” on August 12,
2019. He seeks reconsideration of the Court’s July 12, 2019 Order and Judgment dismissing his
final claim against Defendant Marcello Villegas. Specifically, Plaintiff again objects to the
Court’s denial of leave to amend his complaint in response to Defendant Villegas’ Motion to
Dismiss.
First, to the extent that Plaintiff seeks relief under Rule 59(e), his motion is untimely.
Fed. R. Civ. P. 59(e). However, “a court may treat an untimely Rule 59(e) motion to alter or
amend the judgment as if it were a Rule 60(b) motion” for relief from a judgment or order.
Halicki v. Louisiana Casino Cruises, Inc., 151 F.3d 465,470 (5th Cir. 1998). Thus, the Court
considers Plaintiffs motion as brought pursuant to Rule 60(b)(6).
But the Court finds that Plaintiff is not entitled to relief under Rule 60(b)(6). Plaintiff has
had several opportunities to amend his complaint.1 And he has attempted to amend his
complaint several more times.2 The Court found that Plaintiff s most recent attempts to amend

‘See Docs. 7, 15, and 34.
2 See Docs. 39, 69, 101, and 107.

Case l:16-cv-00164-C Document 115 Filed 08/14/19 Page 2 of 2 PagelD866

his complaint were made in bad faith.3 Plaintiff even acknowledges in his Motion that he
intentionally violated the Court’s specific instructions when he filed his newest proposed
amendment because he disagreed with the limitations set by the Court. Plaintiff has repeatedly
tried to re-urge claims that the Court resolved against him and rename defendants that were
dismissed from the case. In sum. Plaintiff has repeatedly failed to cure the deficiencies in his
pleadings, instead rehashing arguments that the Court resolved against him on November 29,
2018 (Doc. 58). This motion is no different.
Plaintiff acknowledges that the existing Bivens doctrine does not permit his retaliation
claims. He argues that he tried to cure the deficiency in his amendment to ‘‘change the
retaliatory claim, into denial of due process claim [all sic].” But again, he is circling back to
claims that have already been resolved against him. See Doc. 58. As a result, the Court finds
that Plaintiffs Motion should be DENIED in all things.
SO ORDERED.

A 2019.

Dated August

r Unit

3 Docs. 104 and 108.
2

Case: 19-10156

Document: 00515805958

Page: 1

Date Filed: 04/01/2021

QKntteti States Court of Slppeate
for tfje Jftftl) Circuit
No. 19-10156
Ivan Vetcher,
Plaintiff—Appellant,
versus
Immigration and Customs Enforcement (ICE),
Supervisors; Dusty Rowden, ICE Deportation Officer;
FNU Ashley, Detention Officer at Rolling Plains
Regional Jail Detention Center; Marcello Villegas,
Warden, Rolling Plains Regional Jail Detention
Center; ICE Officers, LNU/FNU; Jeh C. Johnson,
Secretary of Department of Homeland Security; Philip
T. Miller, Assistant Director of Field Operations for
Enforcement and Removal Operations; FNU Hernandez,
Detention Officer at Rolling Plains Regional Jail
Detention Center; FNU Ross, Detention Officer at
Rolling Plains Regional Jail Detention Center; ICE
Agents, LNU/FNU, ICEAl; ICE Agents, LNU/FNU, ICEA2;
Rolling Plains Regional Jail & Detention Center Staff;
United States Department of Homeland Security,
Supervisors,
Defendants—Appellees.
Appeal from the United States District Court
for the Northern District of Texas
No. 1:16-CV-164

Case: 19-10156

Document: 00515805958

Page: 2

Date Filed: 04/01/2021

ON PETITION FOR REHEARING EN BANC
(Opinion 2021 U.S. App. LEXIS 2698, Feb. 1, 2021)
Before King, Smith, and Wilson, Circuit Judges.
Per Curiam:
Treating the petition for rehearing en banc as a petition for panel rehearing,
the petition for panel rehearing is DENIED. No member of the panel or judge in
regular active service having requested that the court be polled on rehearing en banc
(Fed. R. App. P. 35; 5th Cir. R. 35), the petition for rehearing en banc is
DENIED.

Case: 19-10156

Document: 00515805967

Page: 1

Date Filed: 04/01/2021

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

LYLE W. CAYCE
CLERK

April 01, 2021

MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW:
No. 19-10156

Vetcher v. Img and Customs Enforcement
USDC No. 1:16-CV-l64

Enclosed is an order entered in this case.

Sincerely,
LYLE W. CAYCE, Clerk

By:

Charles B.Whitney,Deputy Clerk
■ 504-310-7679
Ms.
Ms.
Mr.
Mr.

Ann Elizabeth Cruce-Haag
Karen S. Mitchell
Brian Walters Stoltz
Ivan Alexandrovich Vetcher

Case l:16-cv-00164-C Document 108 Filed 07/12/19

Page 1 of 3 PagelD 849

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
ABILENE DIVISION
IVAN VETCHER,

§
§

Plaintiff,

§
§

§

v.

CIVIL ACTION NO. 1:16-CV-0164-C

§
§
§
§

MARCELLO VILLEGAS,
Defendant.

§

ORDER
Before the Court are the following:

I.

1)

Defendant Marcello Villegas’ Motion to Dismiss and Brief in Support, filed on
June 4, 2019.

2)

Plaintiffs Objections to Motion to Dismiss, filed on July 10, 2019, and

3)

Plaintiffs Amended Complaint, filed on July 10, 2019.
Plaintiffs Amended Complaint

On June 27, 2019, the Court unfiled an amended complaint (Doc. 101) that was filed by
Plaintiff on June 25. The Court found that the pleading was filed in bad faith and without leave
of court. The Court also found that it was excessive both in length and in scope. After unfiling
the non-compliant pleading, the Court granted Plaintiff until July 10, 2019 to file a proper
motion for leave to amend with a proposed amended complaint. The June 27 Order included
specific, unambiguous instructions that any proposed amended complaint could not exceed 25
pages and could include only facts and arguments related to Plaintiffs remaining retaliation
claims against Defendant Marcello Villegas.

Case l:16-cv-00164-C Document 108 Filed 07/12/19 Page 2 of 3 PagelD 850

Plaintiffs July 10 amended complaint (Doc. 107) is 45 pages—nearly twice the length
permitted by the Court’s June 27 Order. The amended complaint is also unsigned and appears to
be incomplete. And despite the Court’s instructions, Plaintiff filed the amended complaint
without a motion for leave to amend. In the amended complaint, Plaintiff again attempts to re­
raise claims that have already been resolved by the Court, to rename defendants that have already
been dismissed from this action, and to raise entirely new claims against new defendants. The
amended complaint wholly fails to comply with the Court’s Order. Consequently, the Court
finds that it should be UNFILED.
Defendant’s Motion to Dismiss

II.

Defendant Villegas argues that Plaintiffs complaint should be dismissed because it asks
the Court to extend Bivens1 to an unwarranted new context. Alternatively, Defendant argues that
the complaint should be dismissed because he was not properly served or served in a timely
manner.
Plaintiff does not address or attempt to cure the Bivens issue in his objections. He
identifies no special factors to justify extending Bivens to a new context. Instead, he asks the
Court to deny Defendant’s Motion to Dismiss as moot in light of his amended complaint. For
the reasons stated above, the Court did not consider Plaintiffs unfilled amended complaint. The
Court has examined the relevant portions of Plaintiff s Third Amended Complaint (Doc. 15),
Defendant’s Motion to Dismiss and Brief in Support, and Plaintiffs Objections.
The Court finds that whether or not Defendant was properly served, Plaintiff has failed to
state a claim for which relief is available under existing Bivens jurisprudence. The Court further
finds that Plaintiff has identified no special factor to warrant extending Bivens to provide a

1Bivens v. Six Unknown Named Agents ofFederal Bureau ofNarcotics, 403 U.S. 388 (1971).
2

Case l:16-cv-00164-C Document 108 Filed 07/12/19 Page 3 of 3 PagelD 851

remedy in this new, First Amendment context. As a result, the Court finds that Defendant’s
Motion to Dismiss should be GRANTED. Plaintiffs objections are overruled.
It is ORDERED that Plaintiffs complaint and all remaining claims against Marcello
Villegas are DISMISSED with prejudice for failure to state a claim upon which relief may be
granted.
Judgment shall be entered accordingly.
All relief not granted is denied and any pencjjng motions^e denied.
Dated July/^, 2019.

3

Case l:16-cv-00164-C Document 109 Filed 07/12/19

Page 1 of 1 PagelD 852

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
ABILENE DIVISION
IVAN VETCHER,

§
§
§
§

Plaintiff,
v.

§

CIVIL ACTION NO. 1:16-CV-0164-C

§
§
§
§
§

MARCELLO VILLEGAS,
Defendant.

JUDGMENT
For the reasons stated in the Court’s Order of even date, it is ORDERED, ADJUDGED,
AND DECREED that Plaintiff s complaint and all remaining claims alleged therein against
Defendant Marcello Villegas are DISMISSED withprejudice.
Dated July 4Z<2019.

/

W-

s.

.c
GS
lejrior United States District Judge

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 1 of 32 PagelD 557

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
ABILENE DIVISION
IVAN VETCHER,

§
§

Plaintiff,

§

Defendants.

§
§
§
§
§
§
§
§

v.

IMMIGRATION AND CUSTOMS
ENFORCEMENT, et al.,

CIVIL ACTION NO. 1:16-CV-0164-C

ORDER
Plaintiff, Ivan Alexandrovich Vetcher, proceeding pro se and in forma pauperis, filed this
civil rights action pursuant to Bivens v. Six Unknown Named Agents of Fed. Bureau of Narcotics,
403 U.S. 388, 389-98 (1971), the Administrative Procedures Act (APA) and the Religious
Freedom Restoration Act (RFRA), 42 U.S.C. § 2000bb et seq. He seeks monetary, declaratory,
and injunctive relief.
Plaintiff was detained in the Rolling Plains Regional Jail and Detention Center
(RPRJDC) in Haskell, Texas pending immigration proceedings when his Complaint was filed;
however, he notified the Court of his subsequent removal from the country. He has provided the
Court with a mailing address in Richardson, Texas. l
Plaintiff asserts claims against several federal officials and private prison employees for
various violations of his constitutional rights. He organizes his claims into seven distinct
categories: (1) denial of access to court, (2) retaliation for exercise of protected rights, (3) denial
of communication, (4) denial of religious rights, (5) punitive treatment in a civil environment, (6)
cruel and unusual punishment, and (7) excessive force.

1 The Clerk also sent Plaintiff instructions for e-filing at his request.

Case l:16-cv-00164-C Document 58 Filed 11/29/18

I.

Page 2 of 32 PagelD 558

BACKGROUND AND JURISDICTION

Plaintiff is a determined litigant who has filed more than a dozen cases before the Board
of Immigration Appeals, the District of Columbia, the Northern District of Texas, the Eastern
District of Texas, the Western District of Louisiana, and the United States Court of Appeals for
the Fifth Circuit.
Plaintiff is a native and citizen of Belarus who entered the Unites States in 2001 as a
refugee. Plaintiff filed this Complaint to challenge the conditions of confinement to which he
was subjected while he was detained pending immigration proceedings.
Plaintiff initiated this case with a handwritten complaint filed in the Dallas Division of
the Northern District of Texas. Plaintiff filed two amended complaints (Docs. 7 & 15), then the
case was transferred to the Abilene division. (Doc. 20.) Plaintiff filed a “Notice to Accept 3rd
Complaint” (Doc. 34) indicating his intent for the Court to proceed with screening his final
Amended Complaint (Doc. 15).2 That pleading, totaling 236 pages with attachments, is subject
to review under § 1915(e).3
In his Amended Complaint, Plaintiff names the following defendants: Jeh Charles
Johnson, (former) Secretary of Department of Homeland Security; Phillip T. Miller, Assistant
Director of Immigration and Customs Enforcement (ICE); Dusty Rowden, ICE Deportation
Officer; FNU Ashley, Detention Officer at the Rolling Plains Regional Jail and Detention Center
(RPRJDC); Marcello Villegas, Warden, RPRJDC; FNU Hernandez, Chief of Security, RPRJDC;
FNU Ross, Mail Room Officer, RPRJDC; and two unidentified ICE agents. Plaintiff alleges

2 Plaintiff later sought leave to again amend his complaint, but such leave was denied on May 5, 2017.
3An amended complaint entirely supersedes and takes the place of an original pleading, rendering the original
complaint of no legal effect. See Clark v. Tarrant County, 798 F.2d 736, 740 (5th Cir. 1986); Boelens v. Redman
Homes, Inc., 759 F.2d 504, 508 (5th Cir. 1985). Thus, this Court considers only the June 2, 2016 amended
complaint with attachments in conducting the judicial screening.

2

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 3 of 32 PagelD559

that between July 2, 2014, and February 16, 2016, he was subjected to civil rights violations at
six detention facilities in four different states and at JFK International Airport.
Plaintiffs Amended Complaint is voluminous and alleges several different types of
claims against the above-named federal officers and private prison employees. Most of
Plaintiffs claims arise from incidents that occurred at RPRJDC; however, he also complains that
he suffered unconstitutional conditions of confinement when he was transferred to five other
facilities in four different states.
Additionally, Plaintiff complains that he was subjected to excessive force at JFK
International Airport in New York when he resisted ICE Agents’ first attempt to remove him
from the country in March 2015.4 This claim is distinct from the rest of Plaintiff s conditions-ofconfinement claims. The Court finds that it lacks jurisdiction over Plaintiff s claims against the
unidentified ICE agents for events that occurred at or near JFK International Airport.
To the extent that Plaintiff has pleaded sufficient facts to warrant further screening of the
New-York based claims, such review should be done in the proper venue. Venue for Bivens
actions lies in the judicial district where a defendant resides or in the judicial district where a
substantial part of the events or omissions giving rise to the claims occurred. 28 U.S.C.
§ 1391(b). A district court may, upon its own motion, transfer any civil action to any other

4 Plaintiff claims that ICE attempted to deport him on March 3, 2015. He states that an unidentified ICE agent,
Defendant ICEA1, took him to JFK International Airport and put him on an airplane. Plaintiff admits that he
resisted the deportation attempt, and there was a physical altercation. Plaintiff claims that Defendant ICEA1
“proceeded with removal using excessive force, maliciously dragging and handcuffing plaintiff with intent to cause
pain and suffering. ICEA1 attempted to intimidate plaintiff by asphyxiating . ...” Doc. 15 at 28. Plaintiff states that
he “did not relent” and eventually the captain ordered that he be taken off the airplane. Plaintiff further claims that
he was physically injured during the altercation and was in “excruciating pain” as he dragged his luggage out of the
airport. The next day, Plaintiff claims that a second unidentified ICE agent, Defendant ICEA2, tightly handcuffed
him while transporting him to the Buffalo Detention Center. He states that when the van stopped for a break,
Defendant ICEA2 “jammed his thumb on the inside of plaintiffs swollen wrists forcefully wiggling, with
intentional malice to cause injury.” Doc 15 at 29.

3

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 4 of 32 PagelD 560

district or division where the claim might have been brought, for the convenience of parties and
witnesses and in the interest of justice. 28 U.S.C. §§ 1404 and 1406. JFK International Airport
is located in Queens, New York, which is located within the Eastern District of New York. The
Court finds that Plaintiffs excessive-use-of-force claims against the unnamed ICE agents that he
identifies as Defendants ICEA1 and ICEA2 should be severed and transferred to the United
States District Court for the Eastern District of New York.
Plaintiffs remaining claims are subject to preliminary screening by this Court pursuant to
28 U.S.C. § 1915(e)(2)(B).

II.

PRELIMINARY SCREENING UNDER 28 U.S.C. § 1915(e)(2)(B)

Because Plaintiff is proceeding in forma pauperis, his complaint is subject to screening
under § 1915(e)(2).5 Section 1915(e)(2)(B) provides for sua sponte dismissal of the complaint,
or any portion thereof, if the Court finds it is frivolous or malicious, if it fails to state a claim
upon which relief may be granted, or if it seeks monetary relief against a defendant who is
immune from such relief.
A complaint is frivolous when it “lacks an arguable basis either in law or in fact.”
Neitzke v. Williams, 490 U.S. 319, 325 (1989). A claim lacks an arguable basis in law when it is
“based on an indisputably meritless legal theory.” Id. at 327. A claim lacks an arguable basis in
fact when it describes “fantastic or delusional scenarios.” Id. at 327-28. A complaint fails to
state a claim upon which relief may be granted when it fails to plead “enough facts to state a
claim to relief that is plausible on its face.” Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570

5 Plaintiff was an alien detainee in the custody of Immigration and Customs Enforcement at the time that he filed his
complaint. The Court previously found that Plaintiff was not a prisoner within the meaning of the Prison Litigation
and Reform Act (See Doc. 19); however, because he is proceeding in forma pauperis, his complaint is still subject to
preliminary screening under Section 1915(e)(2). See Kunda v. Gould, 2006 WL 1506706 at *1 n. 2 (N.D. TX Dallas Div. May 31, 2006).

4

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 5 of 32 PagelD 561

(2007); accord Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). To avoid dismissal for failure to
state a claim, plaintiffs must allege facts sufficient to “raise the right to relief above the
speculative level.” Twombly, 550 U.S. at 555. Mere “labels and conclusions” nor “a formulaic
recitation of the elements of a cause of action” suffice to state a claim upon which relief may be
granted. Id.
A.

Plaintiffs Claim for Declaratory or Injunctive Relief is Moot
Plaintiff is no longer housed in the RPRJDC or detained by ICE. A claim for declaratory

and injunctive relief based on conditions of confinement is rendered moot upon the release or
transfer of a detainee. Edwards v. Johnson, 209 F.3d 772, 776 (5th Cir. 2000). Furthermore, the
possibility of return and future detention in the same facility is too speculative to warrant relief,
particularly considering Plaintiffs removal from the country. See Ruiz v. El Paso Processing
Center, 299 F. App’x. 369, 370 (5 Cir. 2008); Pembroke v. Wood County, Tex., 981 F.2d 225,
228 (5th Cir. 1993); Herman v. Holiday, 238 F.3d 660, 665-66 (5th Cir. 2001). Because Plaintiff
is no longer detained at the RPRJDC, the Court finds that his claims for injunctive and
declaratory relief should be dismissed.
B.

No Claim Against Defendants in an Official Capacity
Plaintiff seeks monetary relief under Bivens v. Six Unknown Named Agents ofFed.

Bureau of Narcotics, 403 U.S. 388, 389-98 (1971). The Bivens court recognized an individual’s
right to seek recovery for violation of constitutional rights by a person acting under color of
federal law. 403 U.S. at 297. Bivens is the counterpart to 42 U.S.C. § 1983, and extends the
protections afforded under § 1983 to parties injured by federal actors. See Evans v. Ball, 168
F.3d 856, 863 n. 10 (5th Cir. 1999) (“A Bivens action is analogous to an action under § 1983—the
only difference being that § 1983 applies to constitutional violations by state, rather than federal

5

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 6 of 32 PagelD 562

officials”), overruled on other grounds, Castellano v. Fragozo, 352 F.3d 939, 948-49 & n. 36
(5th Cir. 2003).
But the Bivens decision only provides a remedy for victims of constitutional violations by
government officers in their individual capacities. A Bivens action does not provide for a cause
of action against the United States. See Affiliated Profl Home Health Care Agency v. Shalala,
164 F.3d 282, 286 (5th Cir. 1999). Nor may & Bivens action be brought against a federal agency,
such as ICE. See FDIC v. Meyer, 510 U.S. 471, 484-86 (1994); Moore v. United States Dep’t of
Agric., 55 F.3d 991, 995 (5th Cir. 1995). Claims against federal employees in their official
capacities based on alleged constitutional violations are also barred under Bivens because they
are the equivalent to claims against the federal agencies who employ the employees. See
Kentucky v. Graham, 473 U.S. 159, 165-67 (1985). This is because the purpose of a Bivens
action is to deter a federal officer from violating a person's constitutional rights. Meyer, 510
U.S. at 485; Correctional Servs. Corp. v. Malesko, 534 U.S. 61, 70 (2001). Because a Bivens
action cannot be brought against a federal agency or individual employees in their official
capacities, Plaintiff has not alleged a viable Bivens claim against Defendants Johnson, Miller,
Rowden, or the two unnamed ICE Agents in their official capacity.
In addition to his claims against individual federal employees, Plaintiff has also named
four defendants6 he identifies as employees of the RPRJDC, which is operated by a private
corporation named Emerald Corrections Management. Plaintiff complains of events that took
place in a private prison and asserts claims against individual employees of the private prison.
Unlike § 1983 claims, there is not a common law “state action” equivalent for claims brought
pursuant to Bivens. The United States Supreme Court has repeatedly refused to extend liability

6 Plaintiff identifies Defendants Ashley, Villegas, Hernandez, and Ross as employees of RDRJDC.

6

Case l:16-cv-00164-C Document 58 Filed 11/29/18 Page 7 of 32 PagelD 563
under Bivens except in limited situations as recently reaffirmed in Ziglar v. Abbasi, et al., 137 S.
Ct. 1843, 1861-64 (2017) (holding that Bivens should not be extended to claims challenging
detention policy in the aftermath of the September 11 attacks and analyzing other situations
where the Court has refused to extend Bivens). And, the Supreme Court has expressly declined
to extend Bivens liability to private corporations. See Malesko, 534 U.S. at 67-74 (2001)
(holding that a Bivens claim is not available against a private corporation operating under a
contract with the federal government).
Because Plaintiff does not have a Bivens remedy against a private corporation, his claims
against the four individual defendants employed by a private corporation in an “official capacity”
also must be dismissed. See Campbell v. Martinez, No.4:03-CV-299-Y, 2003 WL 22410576, at
* 2 n. 7 (N.D. Tex. May 14, 2003) (finding that as defendant physician was not a federal
government employee, “[b]ecause Bivens claims do not lie against private corporations under
contract with the federal government, to the extent [Plaintiff s] official-capacity claim against
[the physician] is a claim against a private entity, it must be dismissed”) (citing Malesko, 534
U.S. at 61).)
The Court finds that all of Plaintiff s official-capacity claims should be dismissed for
failure to state a claim.
C.

Limitation on Claims Against Individual Employees of Private Corporation
The Supreme Court has also refused to extend Bivens liability to allow federal prisoners

to sue the employees of a private prison. See Minneei v. Pollard, 565 U.S. 118, 125-130 (2012).
In that case, a federal prisoner confined at a private prison sought to assert an Eighth
Amendment claim of deliberate indifference to his serious medical needs against individual
employees of the prison. Id. at 125. The Court held that where a federal prisoner seeks damages
7

Case l:16-ev-00164-C Document 58 Filed 11/29/18

Page 8 of 32 PagelD 564

from an individual employed at a privately operated federal prison for alleged conduct that falls
within the scope of traditional state tort law, the prisoner must seek a remedy under state law. Id.,
at 123-131; see also United States v. Fears, No.02-379-2 (JDR), 2014 WL 4669592, at * 1 (D.C.
Sep. 19, 2014) (noting that private prisons and their employees—unlike officers at prisons run by
the BOP-—are generally not proper defendants for Bivens actions alleging constitutional
violations) (citations to Malesko and Minneci omitted); see also Villasenor v. GEO Group, Inc.,
No. 14-CV-92164-BNB, 2014 WL 5293444, at *2 (D. Co. Oct. 16, 2014) (citing Minneci to hold
that as Plaintiffs claims for lack of medical care could also be brought under state tort law, his
claims against individual GEO [private company] prison employee was precluded).
Because the Supreme Court found that the tort law of the state in which the prisoner was
incarcerated provided the prisoner adequate remedies to protect his constitutional interests, the
Court found that Bivens did not provide Plaintiff with a federal remedy against the employees of
the privately run federal prison where the prisoner’s constitutional rights had been violated.
Minneci, 565 U.S. at 126-131. Importantly, the Court “found specific authority indicating that
state law imposes general tort duties of reasonable care ... on prison employees in every one of
the eight States [including Texas] where privately managed secure federal facilities are currently
located.” Id. at 128. Because Defendants Villegas, Ashley, Ross, and Hernandez are employees
of Emerald Corrections Management, a private corporation, no Bivens action is available against
these employees of a private corporation if Texas provides an adequate remedy for these claims.
See Grant v. Lacie, No. H-15-1849, 2015 WL 4769753, at *2 (S.D. Tex. Aug. 12, 2015) (citing
Minneci, 132 S.Ct. at 626 ).
Thus, the review of the claims against these private individual defendants focuses on
whether the alleged conduct supporting the constitutional violation is of the sort that typically

8

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 9 of 32 PageiD 565

falls within the scope of traditional tort law. This is the case in Eighth Amendment conditionsof-confinement type cases. See Cervantes v. Dixon, No.5:13-CV-205-C, 2014 WL 5285699, at
*2 (N.D. Tex. Oct. 15, 2014) (applying Minneci to hold that Bivens does not authorize action for
damages on inmate’s claims that he was denied medical care in privately run facility); see also
Naranjo v. Thompson, etal., NO. PE:ll-CV-0105-RAJ, 2014 WL 12648495, at *4 (W.D. Tex.
Jan, 2, 2014) (collecting cases in the Fifth Circuit and its district courts), rep. and rec. adopted,
2104 WL 12648519 (W.D. Tex. Jan. 31, 2014).
Among the many claims Plaintiff asserts against the private employee defendants in this
case is the claim that items of property sent to him by his family were not actually released to
him but were instead returned to his family. Plaintiff also alleges that defendant Villegas failed
to respond to his complaints that his Kosher diet was deficient in calorie count. He further
claims that the water supply at RPRJDC was contaminated, that his microwave was broken, and
that he was denied access to hot water for several days at a time.
But courts have found that similar claims brought by an inmate against a private prison
employee are barred from review by the logic of Minneci. See Srader v. Richardson, No. 103209-SAC, D. Kan. March 31, 2014) (noting that since plaintiff had adequate remedies under
Kansas tort law for recovery of damages for loss of property, Bivens claims for damages barred
by Minneci) (citations omitted); see also Karbou v. Clark, No.C 12-5045 BHS/KLS, 2013 WL
1283801, at * 7 (ICE detainee’s claims arising from his detention in a privately run facility that
he was denied certain conditions including exercise equipment is kind of claim that must be
dismissed under Minneci) ; Murray v. Corrections Corp. ofAmerica, etal., No. CV 11-2210PHX-RCB (JFM), 2012 WL 2799759 (D. Ariz. July 9,2012) (holding that inmate’s claim that
CCA employees denied him an adequate religious diet were within the scope of traditional tort
9

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 10 of 32 PagelD 566

claims like those alleged in Minneci). Under this authority, the Court finds that all of Plaintiff s
claims against the individual defendants employed by private company Emerald Correction
Management arising from these tort-like claims, should be dismissed.
The Supreme Court in Minneci also recognized that there may be situations in which state
tort remedies are inadequate to vindicate the rights of persons held in privately run federal
correctional facilities. See Minneci, 565 U.S. at 130. Many courts that have analyzed this issue
have determined that an inmate’s claims against an individual employee at a private prison under
the First and Fifth Amendments Amendment may not be barred from review. See Young v.
Tyron, No.l2-CV-6251CJS, 2015 WL 309431 at *9, (W.D. N.Y. Jan. 23, 2015) (“It is not clear
that [the First and Fifth Amendment] claims, by contrast to the conditions of confinement claims,
allege conduct ‘of a kind that typically falls within the scope of traditional state tort law’”)
(citing Minneci, 132 S. Ct. at 626); see also Espinoza v. Zenk, No. 10-CV-427 (MKB), 2013 WL
1232208, at *9-10 (E.D.N.Y. March 27, 2013); Janali v. Correction Corp. OfAmerica, et al,
No.5:l 1CV119-KS-MTP, 2013 WL 6536373, at *6 n.8 (S.D. Miss. Dec. 13, 2013) (“It is not
clear that the First Amendment claims asserted by Plaintiff are of the type that fall within the
scope of traditional tort law; therefore, the undersigned will consider Plaintiffs claims on the
merits”). The Court determines that Plaintiffs claims against the private company defendants
for denial of access to court, retaliation, and interference with his First Amendment religious
rights are not barred from review by Minneci. These claims will be discussed in more detail
below.
D. No Liability for Defendants Acting in a Supervisory Capacity
Plaintiff has named DHS Secretary Jeh Johnson and ICE Field Operations Director
Phillip Miller as individual defendants for each of his seven claims; however, he has recited no
10

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 11 of 32 PagelD 567

facts that relate any personal actions of Johnson or Miller to the extensive allegations that form
the basis of his complaint. In order to state a Bivens claim, the claimant must allege personal
involvement of a defendant. Guerrero-Aguilar v. Ruano, 118 F. App’x 832, 833 (5th Cir. 2004).
Federal officials cannot be held vicariously liable for the acts of subordinates under the doctrine
of respondeat superior. Cronn v. Buffington, 150 F.3d 538, 544 (1998) (citing Abate v. Southern
Pac. Transp. Co., 993 F.2d 107, 110 (5th Cir. 1993)). Without personal involvement or
participation in an alleged constitutional violation, the individual should be dismissed as a
defendant. Cronn, 150 F.3d at 544 (citing Thompkins v. Belt, 828 F.2d 298, 304 (5th Cir. 1987)).
Throughout the amended complaint, Plaintiff describes events that took place during his
detention in chronological order like entries in a diary. He complains that he suffered various
inhumane conditions at each detention center to which he was transferred and seeks to hold
Defendants Johnson and Miller responsible for these conditions. But Plaintiff never states
defendants Johnson or Miller were present at any of these locations, nor does he allege that
Johnson or Miller directly participated in any of the described events. Plaintiff repeatedly claims
that Johnson and Miller “implement[ed] a policy” that was unconstitutional, and “resulted in the
deprivation of. .. rights,” that they “allowed the [civil rights] violations to occur,” and that they
“acquiesced” to the alleged violations. It is clear from the context of these allegations that
Plaintiff seeks to hold Defendants Miller and Johnson responsible due to their supervisory roles
rather than any personal involvement or participation in the alleged civil rights violations.
Plaintiff alleges that he wrote letters to Defendants Miller and Johnson informing them of
his grievances. He does not show that Defendants Miller or Johnson ever personally received or

11

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 12 of 32 PagelD 568

read his letters, or that they responded in any way.7 Plaintiff has named Johnson and Miller in a
supervisory capacity and seeks to hold them liable upon a theory that they were responsible for
the actions of their subordinates, or that they implemented policies that permitted the underlying
violations to occur, or that they acquiesced to the alleged violations by inaction. Plaintiffs
claims against Johnson and Miller are purely conclusory. He asserts no facts to show that
Johnson or Miller were ever personally involved in the any of the events that gave rise to his
complaint. Plaintiff fails to identify any particular policy that was implemented by either
Johnson or Miller related to his claims. Thus, Plaintiff has not stated a viable individual liability
claim under Bivens against either Johnson or Miller, and any such claims against these
defendants should be dismissed for failure to state a claim upon which relief may be granted.
While most of the factual allegations contained in Plaintiffs Amended Complaint arise
from events that took place at the RPRJDC in Haskell, Texas, he also alleges that he suffered
unconstitutional conditions of confinement while housed in the Etowah County Jail in Gadsden,
Alabama; Buffalo Detention Center in Batavia, New York; LaSalle Detention Center in Gena,
Louisiana; Johnson County Law Enforcement Center in Cleburne, Texas; and an unnamed
detention facility in New Jersey. Plaintiff has named no defendants specific to these claims other

7 Allegations of inadequate processing of a grievance do not support a constitutional violation. As the Court of
Appeals for the Fifth Circuit found in Geiger v. Jowers: “[An inmate] does not have a federally protected liberty
interest in having these grievances resolved to his satisfaction. As this claim relies on a legally nonexistent interest,
any alleged due-process violation arising from the alleged failure to investigate his grievances is indisputably
meritless.” Geiger v. Jowers, 404 F.3d 371, 373-74 (5th Cir.2005); see also Jenkins v. Henslee, No. 3-01-CV-1996R, 2002 WL 432948, at *2 (N.D. Tex. March 15, 2002) (“An inmate does not have a constitutional entitlement to a
grievance procedure. Hence any alleged violation of the grievance procedure does not amount to a constitutional
violation”)(citing Adams v. Rice, 40 F.3d 72, 75 (4th Cir.1994) and Antonelli v. Sheahan, 81 F.3d 1422 (7th
Cir. 1996)). Thus, to the extent Plaintiff alleges that either Johnson or Miller failed to respond properly to any
grievance, any such allegation does not state a due process violation mid any additional claims against Miller and
Johnson related to a response to and processing of any claim/grievance should also be dismissed.

12

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 13 of 32 PagelD 569

than Johnson and Miller, therefore this dismissal applies to all claims arising from Plaintiffs
detention in those five facilities.8
E.

No Claim under the Administrative Procedures Act
Plaintiff alludes to the Administrative Procedures Act (APA), 5 U.S.C. § 551 et seq.,

“which sets forth the full extent of judicial authority to review executive agency action for
procedural correctness [and] permits ... the setting aside of agency action that is ‘arbitrary,’ or
‘capricious.’” F.C.C. v. Fox Television Stations, Inc., 556 U.S. 502, 514 (2009).
First, the Court notes that Plaintiffs claims under the APA are too vague and conclusory
to warrant review. Plaintiff only generally alleges that the policies of the Department of
Homeland Security (DHS) and Immigration and Customs Enforcement (ICE) are “arbitrary and
capricious” in violation of the APA. See 5 U.S.C. § 706. He does not identify any particular
policy or describe any specific defect; instead, he implies that he disagrees with all policies
related to immigration detention, written or unwritten, that may have contributed to his
discomfort or dissatisfaction while he was detained.
Even if it were plausible to review all applicable DHS and ICE policies or procedures, the
APA authorizes only declaratory and injunctive relief, not monetary damages. 5 U.S.C. § 702.
As discussed above, Plaintiffs removal has mooted his claims for injunctive or declaratory relief
in this suit. The Court finds that Plaintiff has failed to state a valid claim for relief under the
Administrative Procedures Act.

8 Plaintiff claims that an unnamed ICE agent, “ICEA2,” used excessive force while transporting Plaintiff from JFK
International Airport to Buffalo Detention Center. Plaintiff does not allege that ICEA2 participated or should be
held responsible for any events occurring after the transportation was complete.

13

Case l:16-cv-00164-C Document 58 Filed 11/29/18

F.

Page 14 of 32 PagelD 570

Failure to State a Claim Upon Which Relief May be Granted
Although the “court must accept as true all of the allegations contained in a complaint,”

that tenet “is inapplicable to legal conclusions. Threadbare recitals of the elements of a cause of
action, supported by mere conclusory statements, do not suffice.” Ashcroft v. Iqbal, 556 U.S.
662, 678 (2009). In order to assert a claim for damages for violation of federal constitutional
rights under Bivens, a plaintiff must set forth facts in support of both of its elements: (1) the
deprivation of a right secured by the Constitution or laws of the United States (2) by a person
acting under color of law. See West v. Atkins, 487 U.S. 42, 48 (1988) (elements of § 1983
action); Evans, 168 F.3d at 863 n. 10.
i.

Punitive Treatment in a Civil Environment

As an alien detainee awaiting removal, Plaintiffs constitutional rights were equivalent to
those of a pretrial detainee. Edwards v. Johnson, 209 F.3d 772, 778 (5th Cir. 2000). A pretrial
detainee’s constitutional claims are evaluated under the Due Process Clause of the Fourteenth
Amendment, rather than the Eighth Amendment’s protection against cruel and unusual
punishment. Id. at 778.
Detainees have a constitutional right to be free from punishment. Bell v. Wolfish, 441
U.S. 520, 534-37 (1979). Not every restriction imposed during detention amounts to punishment
in the constitutional sense.” Id. at 537. The analysis of constitutional challenges by pretrial
detainees centers upon whether the allegation challenges a “condition of confinement” or an
“episodic act or omission.” Scott v. Moore, 114 F.3d 51, 53 (5th Cir. 1997) (citing Hare v. City
of Corinth, Miss. 74 F.3d 633, 644 (5 Cir. 1996)). A “condition of confinement” case attacks
“general conditions, practices, rules, or restrictions of pretrial confinement.” Id. On the other
hand, if a plaintiffs allegations are based on a specific act or omission of one or more officials,
14

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 15 of 32 PagelD571

the action is characterized as an “episodic act or omission” case. See Olabisiomotosho v. City of
Houston, 185 F.3d 521, 526 (5th Cir.1999); Hare, 74 F.3d at 645.
In condition cases, the injury is caused directly by the challenged practice, policy, or
condition. These cases include, for example, allegations of inadequate food, heating, sanitary
conditions, or mail privileges. Scott v. Moore, 114 F.3d 51, 53 (5th Cir. 1997). Whena
pretrial detainee complains about general conditions of confinement, a constitutional violation
exists only if the court finds that the conditions of confinement are not reasonably related to a
legitimate, non-punitive governmental objective. See Hare, 74 F.3d at 640 (citing Bell 441 U.S.
at 538-39); see also Scott, 114 F.3d at 53 (citing Hare).
“[Maintaining institutional security and preserving internal order and discipline are
essential goals that may require limitation or retraction of the retained constitutional rights of
both convicted prisoners and pretrial detainees.” Bell, 441 U.S. at 546-47. Accordingly,.. . even
when an institutional restriction infringes a specific constitutional guarantee, such as the First
Amendment, the practice must be evaluated in the light of the central objective of prison
administration, safeguarding institutional security. Id. (citing Jones v. North Carolina Prisoners’
Labor Union, 433 U.S. 119, 129 (1977).
“[I]f a particular condition or restriction of pretrial detention is reasonably related to a
legitimate governmental objective, it does not, without more, amount to punishment. Conversely,
if a restriction or condition is not reasonably related to a legitimate goal—if it is arbitrary or
purposeless—a court permissibly may infer that the purpose of the governmental action is
punishment that may not constitutionally be inflicted upon detainees qua detainees.” Bell, 441
U.S. at 539.

15

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 16 of 32 PagelD572

In episodic act or omission cases, the plaintiff is suing an individual defendant, as
opposed to an entity and must demonstrate that the official(s) acted with subjective deliberate
indifference. Olabisiomotosho, 185 F.3d at 526 (citing Flores v. County of Hardeman, 124 F.3d
736, 738-39 (5th Cir. 1997)). An official acts with subjective deliberate indifference when he
“had subjective knowledge of a substantial risk of serious harm to a pretrial detainee but
responded with deliberate indifference to that risk.” Hare, 74 F.3d at 650.
Episodic act or omission cases typically, deal with claims involving an official’s failure to
protect the plaintiff or denial of adequate medical care. Although the Fifth Circuit has carefully
distinguished the conditions of confinement cases from those alleging a specific act or omission,
it has also noted that “the reasonable-relationship test employed in conditions cases is
‘functionally equivalent to’ the deliberate indifference standard employed in episodic
cases.” Scott, 114 F.3d at 54 (citing Hare, 74 F.3d at 643).
Not all discomforts associated with detention amount to punishment in the constitutional
sense, even restrictions that the detainee would not experience if he were released. Bell, 441
U.S. at 540. Courts should not underestimate the difficulties of operating a detention center.
Florence v. Bd. of Chosen Freeholders of Cty. ofBurlington, 566 U.S. 318, 326 (2012) (citing
Turner v. Safley, 482 U.S. 78, 84-85 (1987)). For detainees, “‘[tjhere is, of course, a de
minimis level of imposition with which the Constitution is not Concerned.’” Hamilton v. Lyons,
74 F.3d 99, 106 (5th Cir. 1996) (citing Bell, 441 U.S. at 539 n. 21).
Plaintiff uses this catch-all category to complain about a broken microwave oven, the use
of physical restraints during transport, the limit on books, the inclusion of false information in
his official file, interference with his family visit, and the temporary restriction against filing
grievances. Plaintiff asserts this claim against Defendants Villegas and Hernandez, stating that

16

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 17 of 32 PagelD 573

they acquiesced to and systematically covered up abusive practices at the RPRJDC. Because he
names only private employees of Emerald Corporation and no federal agents, this section
includes many claims that are barred under Minneci as discussed above.
Plaintiff fails to allege any facts to demonstrate that the conditions and acts he complains
about were intended to be punitive. The discomforts he describes are not arbitrary or
purposeless, but are reasonably related to the governmental interests of maintaining institutional
security and preserving internal order and discipline. Moreover, Plaintiff fails to demonstrate
that he suffered more than a de minimis level of imposition. Plaintiffs repeated, conclusory
recitation of the standard does not suffice to state a claim. The Court finds that Plaintiffs claim
for punitive treatment in a civil environment should be dismissed for failure to state a claim.
ii.

Cruel and Unusual Punishment

Plaintiff claims that the water supply at RPRJDC was contaminated. He also complains
that when he filed grievances complaining about the polluted water, Defendant Villegas did not
respond appropriately. The Eighth Amendment prohibits punishments that involve “‘unnecessary
and wanton infliction of pain,’[] or are grossly disproportionate to the severity of the crime.”
Rhodes v. Chapman, 452 U.S. 337, 346 (1981).
Plaintiff does not allege that the polluted water caused him any harm. He alleges, at best,
that he was afraid of the possibility of future health risks. He has not demonstrated that the
alleged pollution resulted in unnecessary and wanton pain. He has failed to demonstrate that the
condition of the water supply was related to any intent to punish the detainees.
He relies on an internet page showing that an environmental activist group tested the
water supply in Haskell, Texas, one time and found what it considers to be unsafe levels of

17

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 18 of 32 PagelD 574

trihalomethanes.9 He also states anecdotally that the courthouse in Abilene, Texas,
approximately 50 miles away, was at some point found to have high levels of lead.
The Court finds that Plaintiff has failed to state a claim that he was subjected to cruel and
unusual punishment. This claim should be dismissed.
iii.

Inadequate Law Library and Denial ofAccess to Court

Plaintiff repeatedly complains about the inadequacy of the law library at RPRJDC and
other detention centers, describing insufficient federal materials, inadequate assistance by a law
library supervisor, lack of access to an electronic research database, lack of access to a printer to
print documents, failure to provide all pages of copies of requested cases, and failure to provide
Plaintiff sufficient or extra law library time. Plaintiff asserts these claims against defendants
Villegas, Hernandez, Ross, Ashley, and Rowden.
The Supreme Court, in Bounds v. Smith, 430 U.S. 817, 828 (1977), recognized a
fundamental constitutional right of access to the courts. Id. ; see generally Bill Johnson’s
Restaurants, Inc. v. NLRB, 461 U.S. 731, 741 (1983) (“[T]he right of access to the courts is an
aspect of the First Amendment right to petition the Government for redress of grievances”);
Johnson v. Atkins, 999 F.2d 99, 100 (5th Cir. 1993) (“Meaningful access to the courts is a
fundamental constitutional right, grounded in the First Amendment right to petition and the Fifth
and Fourteenth Amendment due process clauses”) (quoting Chrissy F. v. Mississippi Dept. Of
Public Welfare, 925 F.2d 844, 851 (5th Cir. 1991)). The Court later clarified the scope of a
prisoner’s right of access to the courts and found that a prisoner must allege an actual injury to
support a claim for a violation of such right.

9 Trihalomethanes are a group of four chemicals that form as a byproduct of disinfectants in drinking water.
https://safewater.zendesk.com/hc/en-us/sections/202346187-Total-Trihalomethanes-TTHMs- (last visited Nov. 20,
2018).

18

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 19 of 32 PagelD 575

Because Bounds did not create an abstract, freestanding right to a law library or
legal assistance, an inmate cannot establish relevant actual injury simply by
establishing that his prison’s law library or legal assistance program is sub-par in
some theoretical sense . . . [t]he inmate therefore must go one step further and
demonstrate that the alleged shortcomings in the library or legal assistance
program hindered his efforts to pursue a legal claim.
Lewis v. Casey, 518 U.S. 343, 351 (1996).
Thus, in order to state a claim of a right to relief on the alleged facts, Plaintiff must
demonstrate that the law library’s deficiency hindered his efforts to pursue a non-ffivolous legal
claim. See Chriceol v. Phillips, 169 F.3d 313, 317 (5th Cir. 1999) (inmate alleging denial of
access to courts must demonstrate actual injury) (citing Ruiz v. United States, 160 F.3d 273, 275
(5th Cir. 1998) (holding that without proof of actual injury a prisoner cannot prevail on an
access-to-the-courts claim)); see also McDonald v. Steward, 132 F.3d 225, 230-31 (5th Cir.
1998) (noting that such a plaintiff must show prejudice to his position as a litigant)(citations
omitted). But Plaintiff has not shown the requisite prejudice.
Plaintiff alleges that he was initially detained and housed at RPRJDC on July 2, 2014.10
Plaintiff first alleges that because he was denied adequate access to the library and legal

10 The Court takes judicial notice of Vetcher v. Sessions, 316 F.Supp.3d 70, 73-74 (D.D.C. 2018), which
provides the relevant factual and procedural background as follows:
Plaintiff, a native and citizen of Belarus, entered the United States in 2001 as a refugee. In
2014, he was convicted under Texas Health and Safety Code § 481.113(d), which makes it a
first-degree felony to knowingly manufacture, deliver, or possess with intent to deliver between 4
and 400 grams of any controlled substance. Shortly after his conviction, DHS initiated removal
proceedings under 8 U.S.C. § 1227(a)(2)(A)(iii), which requires the Attorney General to order
“[a]ny alien who is convicted of an aggravated felony at any time after admission ...
deportable.” By statute, any alien “found ... deportable” under 8 U.S.C. § 1227(a)(2) is subject
to mandatory detention during the removal period. On July 2, 2014, accordingly, Vetcher was
taken into ICE custody. On August 6, the Immigration Judge sustained the aggravated-felony
charge, found Vetcher ineligible for asylum or withholding of removal, and denied his request for
deferral of removal under the Convention Against Torture. He successfully filed a motion to
reopen proceedings on March 25, 2015, however, and the BIA then remanded the matter because
“the Immigration Judge had not given [him] a meaningful chance to contest the aggravated
felony charge during his [pro se] initial proceedings.
After Vetcher’s case was remanded, DHS withdrew the aggravated-felony basis for removal
and instead charged him as “deportable” as an “alien who ... has been convicted of a violation of
... . any law ... relating to a controlled substance.” 8 U.S.C. § 1227(a)(2)(B)(i). On September 2,

19

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 20 of 32 PagelD 576

assistance between his detention and his initial appearance in front of an Immigration Judge, he
conceded to immigration charge that he had been convicted of an “aggravated felony.” He also
acknowledges that he later successfully challenged the “aggravated felony” immigration
charge.11 He also claims that while he was litigating his immigration appeal(s), he was
purposefully transferred multiple times between units in order to hinder his ability to prepare for
court.12
Although Plaintiff states that the inadequate library resources at RPRJDC hindered his
efforts to pursue a legitimate legal claim, he also admits that he successfully litigated the issue
while he was still detained. Thus, Plaintiff has failed to demonstrate that the library’s alleged
shortcomings ultimately hindered his litigation or resulted in an actual injury.
Plaintiff also alleges that he was prejudiced because the law library at RPRJDC did not
contain Mellouli v. Lynch, 135 S. Ct. 1980 (2015), the case relied upon by the government during
Plaintiff s remand hearing. However, Plaintiff s claim is conclusory at best. Plaintiff does not
state how the outcome of his hearing would have been different had the library contained a copy
of Mellouli. Plaintiff fails to identify any argument he could have made with advance access to

2015, the IJ held a hearing where Plaintiff was denied release on bond and ordered detained
pending completion of removal proceedings. In a subsequent remand hearing on the merits the
next month, the Government argued that under a recent Supreme Court decision, Mellouli v.
Lynch, 135 S. Ct. 1980 (2015), the IJ could determine that Vetcher’s Texas conviction qualified
as a controlled-substance offense under § 1227(a)(2)(B)(i). Vetcher protested that he did not have
access to Mellouli and asked for time to review the case. The IJ refused and withdrew the
§ 1227(a)(2)(A)(iii) aggravated felony charge while sustaining the § 1227(a)(2)(B)(i) drugpossession charge. The IJ also denied Plaintiff cancellation of removal. Vetcher again appealed
to the BIA, arguing that he had been denied access to court and due process. The BIA
nonetheless affirmed the IJ’s decision to sustain the removability charge but remanded for further
factual findings as to the IJ’s denial of his application for cancellation of removal. [] Following
remand, the IJ again denied Plaintiff cancellation of removal and ordered him removed. The BIA
affirmed this decision on May 11, 2018, entering a final order of removal.
Vetcher v. Sessions, 316 F.Supp.3d 70, 73-74 (D.D.C. 2018) (internal citations omitted).
n On remand, the aggravated felony charge was withdrawn and the immigration judge found instead that Plaintiff
was deportable on the alternative charge that he had been convicted of a controlled substance offense.
12 This claim will be discussed more fully below, with Plaintiffs retaliation claim
20

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 21 of 32 PagelD 577

the Mellouli case. Simply put, Plaintiff has failed to establish that he was prejudiced as a result
of the library’s alleged shortcomings.
He subsequently claims, in conclusory fashion, that insufficient library resources
rendered him incapable of “bringing contemplated challenges” to “sentences, detention, and
conditions of confinement.” He specifically claims that the RPRJDC library was
“nonfunctioning” for two months, from August to October, 2015, when the Lexis Nexis database
needed an update.
Plaintiffs Amended Complaint with attachments demonstrates unequivocally that he
made frequent and relentless use of both the grievance system and the court system while he was
detained. Plaintiff freely filed grievances to contest every conceivable discomfort he
encountered. He sent letters of complaint to prison officials and department heads alike. He
doggedly pursued every avenue to appeal his removal status.
Aside from the aggravated-felony issue, which was fully and successfully litigated by
Plaintiff while he was detained, Plaintiff has failed to identify any non-frivolous legal claims that
were hindered by the alleged shortcomings of the prison library. He has not described any failed
attempts at litigation or any missed deadlines. Instead, he relies on vague, conclusory, and
wistful allegations of lost possibilities. These claims are insufficient to state a claim of
constitutional deprivation.
Without showing an actual injury, Plaintiff fails to state an access-to-courts claim upon
which relief can be granted. Plaintiff’s access-to-courts claim should be dismissed.
iv.

Denial of Communication

Plaintiff alleges that his First Amendment rights were violated when Defendant Ross
interfered with his receipt of mail at RPRJDC. He claims that Defendant Ross withheld items
21

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 22 of 32 PagelD 578

that were mailed to Plaintiff by his wife as well as items Plaintiff ordered or solicited from third
parties. He specifically alleges that his wife sent him “articles to assist plaintiff s representation
in court, samples of inspirational artwork and pictures of plaintiffs wife and son.” Doc. 15 at
33. Plaintiff alleges that these items were withheld due to a “punitive regulation targeting
‘printed material’ not from publisher.” Id.
Plaintiff also complains that he was limited to receiving only four books every six months
due to the policy in place at RPRJDC. Plaintiff claims that both recreational and legal-researchrelated books were withheld from him due to this policy, and moreover, they were returned to the
sender rather than being placed with his property. Additionally, Plaintiff alleges that Defendant
Ross confiscated ‘legal material’ that was mailed from a third party, containing ICE statutes,
Texas statutes, and information about RPRJDC and Emerald Corporation. He claims the
confiscated legal materials were necessary for his preparation in the instant civil action.
First, the Court notes that Plaintiff alleges only the withholding of nonlegal mail. He
does not complain about any interference with correspondence to or from any attorney or court.
He asserts that on one occasion, he was denied articles that his wife sent him to help with his
litigation, but he does not state the nature of the articles, how they would have helped his
litigation, or how he was prejudiced as a result. Similarly, although he complains that he was
denied “legal materials”13 that were necessary for the preparation of this suit, he fails to state any
facts to show that he was hindered in his ability to file or defend this civil action.
A detainee’s First Amendment rights are implicated if the challenged action constitutes
an “exaggerated response” by officials to the legitimate need to “preserve internal order and
13 Plaintiff alleges that he placed a mail order for ICE statutes, Texas Statutes, and information about RPRJDC and
Emerald Corporation in the mail from Stidd Legal Services. His attachments indicate that the mail room supervisor
confiscated these items and placed them in Plaintiffs property. The attachments also indicate that the materials
were excessive in volume and were not considered to be legal paperwork by ICE.
22

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 23 of 32 PagelD 579

discipline and to maintain institutional security.” Edwards v. Johnson, 209 F.3d 772, 779 (5th
Cir. 2000) (citing Mann v. Smith, 796 F.2d 79, 82 (5th Cir.1986).
After carefully reviewing Plaintiff s pleading and the applicable law, the Court finds that
the Defendants’ withholding of Plaintiff s incoming mail and books pursuant to the policies in
place at the RPRJDC was not exaggerated or punitive, but was reasonably related to a legitimate
governmental interest in maintaining order and security in the detention center. Moreover, even
if Plaintiff s First Amendment rights were implicated, he has failed to state more than a de
minimis injury, and therefore failed to state a claim that invokes constitutional protection.
Plaintiff has failed to provide any direct evidence of punitive intent behind the complained-of
policies. He does not allege that the denial of photos or correspondence from his wife, the denial
of additional recreational literature, or the denial of independent research materials prejudiced
his ability to litigate his claims, either in this suit or in any of his contemporaneous habeas
actions.
Plaintiff has also failed to demonstrate that any Defendant had subjective knowledge of a
substantial risk of serious harm to Plaintiff but withheld the materials anyway. Plaintiff filed
several grievances regarding the denial of his nonlegal mail, which he attached to his Amended
Complaint. Plaintiff complains that the materials were a “heartfelt effort” of his wife to “lift
[his] spirit for the holidays.” Doc. 15-1 at 36. He also states his belief that self-improvement
literature did not have to be pre-approved. Although he states in his grievances that some of the
materials would assist his presentation in court, and that he believes they were withheld to
“frustrate and impede [his] legal claims,” these conclusory statements are insufficient to establish
a substantial risk of serious harm necessary for the deliberate indifference standard. Finally, to
the extent that he is complaining generally about withholding of his property, the Court finds that
23

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 24 of 32 PagelD 580

Bivens isn’t the proper vehicle for relief from private corporate actors as stated above because
there is an adequate alternative remedy under Texas tort law for property disputes. Accordingly,
Plaintiffs denial-of-communication claim(s) should be DENIED.
v.

Denial ofReligious Rights

Plaintiff claims that his religious rights under the Equal Protection Clause and the
Religious Freedom Restoration Act (RFRA) while he was housed at RPRJDC because the kosher
meals offered were calorie-deficient and on one occasion, he was denied permission to attend an
Islamic religious service.
The RFRA “mandates that government shall not substantially burden a person’s exercise
of religion unless the government demonstrates that the burden furthers a compelling
governmental interest by the least restrictive means.” Diaz v. Collins, 114 F.3d 69, 71 (5th Cir.
1997) (internal quotations omitted); 42 U.S.C. § 2000bb-l.
“[A] government action or regulation creates a ‘substantial burden’ on a religious
exercise if it truly pressures the adherent to significantly modify his religious behavior and'
significantly violate his religious beliefs.” Adkins v. Kaspar, 393 F.3d 559, 570 (5th Cir. 2004).
“Not all regulations affecting religious activity fall within the [RFRA]. Only regulations
which substantially burden a prisoner's capacity to exercise his beliefs of faith are governed by
the [RFRA]. Reasonable time, place, or manner restrictions upon communal religious gatherings
do not necessitate the identification of a compelling state interest.” Abdur-Rahman v. Michigan
Dep't ofCorr., 65 F.3d 489, 492 (6th Cir. 1995).
t

Congress no doubt meant the modifier “substantially” to carry weight. In
the original draft of RFRA, the word “burden” appeared unmodified. The
word “substantially” was inserted pursuant to a clarifying amendment
offered by Senators Kennedy and Hatch. In proposing the amendment,
Senator Kennedy stated that RFRA ... “does not require the Government
24

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 25 of 32 PagelD 581

to justify every action that has some effect on religious exercise.
Burwell v. Hobby Lobby Stores, Inc., 134 S. Ct. 2751, 2798 (2014) (Ginsburg, J., dissenting)
If a court finds no substantial burden is being placed on a plaintiff, then there is no need
to reach the questions of whether a compelling governmental interest exists or whether it is being
furthered in the least restrict manner. See Johnson v. Baker, 67 F.3d 299, *5 (6 Cir. 1995)
(unpublished)
Single incidents of missing religious services are generally not treated as First
Amendment violations. Maduro v. McClure, No. 5:14-CV-91, 2015 WL 5837390, at *4 (E.D.
Tex. Sept. 30, 2015); See, e.g., Green v. McKaskle, 788 F.2d 1116, 1126 (5th Cir.1986) (fact that
inmate could not attend all of the religious services he wanted and was occasionally prevented by
circumstances from attending services did not amount to a constitutional violation); Williams v.
Bragg, 537 F.App’x 468 (5th Cir., July 29, 2013) (cancellation of several Muslim services for
security reasons did not violate prisoner’s rights under the First Amendment or substantially
burden his right of free exercise under the Religious Freedom Restoration Act).
Plaintiff claims that on April 22, 2016, Defendant Hernandez prevented him from
attending an Islamic religious service because he was not Muslim. He also complains that he
wrote a letter to Defendant Villegas informing him of the denial, and Defendant Villegas failed
to take corrective action. Plaintiff alleges a single, isolated occurrence. He states in conclusory
fashion that this event placed a substantial burden on his sincerely held religious beliefs;
however, he alleges no facts to support that conclusion. He does not specify what religious
beliefs he holds, or how they were burdened by his inability to attend this specific religious
service. He does not allege that he is or was Muslim, or that he was prevented from attending
any other services.

25

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 26 of 32 PagelD 582

Similarly, Plaintiffs complaint about the calorie content of kosher meals fails to state a
viable claim. First, the Court notes that Plaintiffs own attachments belie his claims that the
available kosher meals contained insufficient calories. See Doc. 15-1 at 57-59.14 Even if
Plaintiff could show that the available kosher meals regularly contained fewer calories than the
available non-kosher meals, the Court finds that the difference is negligible and does not
constitute a substantial burden.15
Assuming the facts pleaded by Plaintiff are all true, they simply do not constitute a
substantial burden. Plaintiffs claims that he was prevented from participating in one religious
service and that the kosher meals provided were calorie-deficient fail to state a claim upon which
relief may be granted.16
vi.

Excessive Use ofForce

Plaintiff alleges excessive-use-of-force claims against Defendants Villegas, Hernandez,
and Rowden, but does not state any facts to indicate that any of these Defendants were present or
participated in the use of force.
He claims that on February 1, 2016, he tied himself to a pole in his room to protest his
transfer from RPRJDC to another facility. He states that Lieutenant Green, who is not a

14Although Plaintiffs attachments are unauthenticated, the Court takes them at face value. Plaintiffs attachments,
marked by him as D6, D7, and D8, purport to be examples of week-long kosher menus from RPRJDC, each
showing a 2500-calorie daily average for kosher meals.
15 See e.g. Baranowski v. Hart, 486 F.3d 112, 122 (5th Cir. 2007) (finding that “there was a logical connection
between the prison policy on inmate diet and the ‘legitimate governmental interest in running a simplified prison
food service rather than a full-scale restaurant’”); Patel v. U.S. Bureau of Prisons, 515 F.3d 807, 813 (8th Cir. 2008)
(finding that it was not a substantial burden on plaintiff to purchase food in the commissary to supplement his
religious diet); But cf. Moussazadeh v. Tex. Dep’t. of Criminal Justice, 703 F.3d 781 (5th Cir. 2012) (distinguishing
Patel and finding that it did place a substantial burden on a plaintiff for TDCJ to not offer any kosher food from the
dining hall and instead force a plaintiff to purchase kosher food separately from the commissary for all his meals).
16 Even if Plaintiff s factual allegations were sufficient to demonstrate a substantial burden, the Court notes that
RFRA does not permit recovery of money damages, see, e.g., Oklevueha Native Am. Church ofHawaii, Inc. v.
Holder, 676 F.3d 829, 840-41 (9th Cir. 2012) (applying Sossamon v. Texas, 563 U.S. 211, 131 S.Ct. 1651, 179
L.Ed.2d 700 (2011), which held “’appropriate relief does not clearly include money damages, but. .. the context
here ... suggests, if anything, that monetary damages are not ‘suitable’ or ‘proper’”).

26

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 27 of 32 Page!D 583

defendant in this action, ordered unnamed officers to remove him and they “forced plaintiff s
head to the ground, twisted his hands behind his back and yanked at the cloth connecting
plaintiff to the pole causing sever [sic] pain.” He states, in conclusory fashion, that the officers
were “fulfilling malicious and sadistically [sic] retaliation envisioned by defendant ROWDEN
[sic].” Although he attributes the use of force to Defendant Rowden, he never states that
Defendant Rowden was present, nor does he state that either Defendant Villegas or Defendant
Hernandez were present. Plaintiff has failed to state a claim against Defendants Villegas,
Hernandez, or Rowden for excessive use of force. This claim should be dismissed.
vii. First Amendment Retaliation
“To prevail on a claim of retaliation, a prisoner must establish (1) a specific constitutional
right, (2) the defendant's intent to retaliate against the prisoner for his or her exercise of that
right, (3) a retaliatory adverse act, and (4) causation.” Morris v. Powell, 449 F.3d 682, 684 (5th
Cir. 2006) (quoting McDonald v. Steward, 132 F.3d 225, 231 (5th Cir.1998)). Retaliation is
actionable only “if it is capable of deterring a person of ordinary firmness from further exercising
his constitutional rights.” Id. at 686. Some actions, even if motivated by retaliatory intent, are so
de minimis that they do not invoke constitutional protections. Id.
a. Retaliatory Transfer
As noted above, Plaintiffs pleading demonstrates that he made frequent use of the
grievance procedures available at the RPRJDC and other detention centers. He also indicates
that he actively litigated appeals of his criminal conviction and removal proceedings while
detained at RPRJDC. Plaintiff asserts that between January 21, 2016 and February 1, 2016, he
wrote several letters to various officials, filed many new grievances, and continued to work on
his pending litigation. He alleges that at 5:00 a.m. on February 2, 2016, Defendants Rowden and
27

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 28 of 32 PagelD 584

Villegas abruptly transferred him to an inferior facility in retaliation for his exercise of his First
Amendment rights. Plaintiff further alleges that on February 12, 2016, he was transferred back
to RPRJDC at the direction of Defendant Rowden despite requesting not to be transferred again.
“There is no doubt that transfer to a more dangerous prison as a penalty for the exercise
of constitutional rights has the potential to deter the inmate from the future exercise of those
rights.” Morris, 449 F.3d at 687. Claims of retaliatory transfers to inferior prison facilities or
even to more dangerous sections of the same prison are sufficiently serious to survive screening.
Id. Plaintiff alleges that his transfer required him to endure “horrendous living conditions in an
overcrowded warehouse; with continuous illumination and noise causing sleep deprivation;
leaking ceiling; white powdery substance dropping from the ceiling ...; open bathroom without
toilet stalls and showers without shower curtains . .. unit contaminated with urine and feces
fumes; even more deficient law library,” and other objectionable circumstances. (Doc. 15-45,
46). The Court finds that Plaintiff has pleaded sufficient facts to state a plausible claim for
retaliatory transfer against Defendants Rowden and Villegas and those defendants should be
served with process.
b. Retaliatory Disciplinary Actions
Plaintiff asserts that Defendants Ashley and Hernandez maliciously prosecuted him for
disciplinary infractions in retaliation for his grievance activity. Plaintiff establishes that he
directed many of his letters of complaint and grievances toward Defendant Ashley, challenging
her operation of the law library at RPRJDC. He claims that on March 7 and March 8, 2016, he
entered the law library and began working on a computer without Defendant Ashley’s
permission. She reported him for the disciplinary infraction of disobeying her orders. Plaintiff
claims that he had a constitutional right to use the computers for his litigation and Defendant
28

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 29 of 32 PagelD 585

Ashley retaliated against him for the exercise of that right by writing the “bogus” disciplinary
charges with the intent to place him in solitary confinement. Nothing in Plaintiffs pleading or
attachments indicates that he was ever punished for Defendant Ashley’s reports. The Court finds
that even if Defendant Ashley’s reports were retaliatory adverse actions, Plaintiffs injury, if any,
was de minimis because he was not punished for the disciplinary reports. Plaintiff has failed to
state a claim against Defendant Ashley. This claim should be dismissed.
Plaintiff asserts that on March 7, 2016, Defendant Villegas placed him on a grievance
hold to prevent him from further exercising his right to redress his grievances. The Court
recognizes that Defendant Villegas was responsible for operating the detention center and the
hold was an administrative decision. However, to the extent that the grievance hold expressly
punishes Plaintiff for filing grievances and does so by preventing him from filing more
grievances, retaliation may plausibly be inferred. Whether Plaintiffs grievance activity was
abusive or whether it was protected activity is an issue that cannot be resolved at the screening
stage. The Court finds that this claim requires service on and an answer from Defendant
Villegas.
Plaintiff claims that almost a week later, on March 13,2016, he was charged with another
retaliatory disciplinary case. He states that Defendant Hernandez charged him with a higherlevel offense than was necessary or customary and punished him excessively for his disciplinary
violations “to resolve a vendetta against Vetcher and to chill his exercise of protected rights.”
Doc. 15 at 53. Plaintiff complains that Defendant Hernandez humiliated him by having him
kneel and submit to shackles to be escorted to solitary confinement. Plaintiffs attachments
demonstrate that he was charged with, and admitted to, possessing items of contraband - a USB
drive and a cord. He was sentenced to 30 days of solitary confinement.
29

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 30 of 32 PagelD 586

A plaintiff does not have to demonstrate that he received a favorable outcome in a
disciplinary case if he asserts retaliatory motive. Woods v. Smith, 60 F.3d 1161, 1164-66 (5th
Cir. 1995). However, courts must carefully scrutinize these types of claims to “assure that
prisoners do not inappropriately insulate themselves from disciplinary actions by drawing the
shield of retaliation around them.” Id. at 1166 (5th Cir. 1995).
To state a claim of retaliation an inmate must allege the violation of a specific
constitutional right and be prepared to establish that but for the retaliatory motive
the complained of incident—such as the filing of disciplinary reports as in the
case at bar—would not have occurred. This places a significant burden on the
inmate. Mere conclusionary allegations of retaliation will not withstand a
summary judgment challenge. The inmate must produce direct evidence of
motivation or, the more probable scenario, ‘allege a chronology of events from
which retaliation may plausibly be inferred.’ Although we decline to hold as a
matter of law that a legitimate prison disciplinary report is an absolute bar to
a retaliation claim, the existence of same, properly viewed, is probative and potent
summary judgment evidence, as would be evidence of the number, nature, and
disposition of prior retaliation complaints by the inmate.
Id.
Plaintiffs specific chronology of events contradicts his claim of retaliatory intent. While
Plaintiff appears at first glance to state a chronology of events from which retaliation may be
inferred, the implication changes when the context of Plaintiff s claims is considered. Plaintiff s
own attachments show that throughout his detention he made frequent, relentless use of the
available grievance procedures. Because of the March 7 grievance hold, Plaintiff was already
prevented from exercising his grievance rights. So the disciplinary proceeding was unnecessary
to chill Plaintiffs exercise. Moreover, the Court considers Plaintiff s admission to possessing
contraband in violation of the facility’s disciplinary rules to be probative and potent evidence
that the disciplinary proceeding was legitimate rather than retaliatory.
Plaintiff also claims that Defendant Hernandez retaliated against him on May 14, 2016,
by cancelling a visit with his family. Plaintiffs referenced attachments reveal that his visit was
30

Case l:16-cv-00164-C Document 58 Filed 11/29/18

Page 31 of 32 PagelD 587

cancelled after his step-daughter was found to have brought a cell-phone into the detention
facility in violation of the visitation rules. Plaintiff s allegation that this action was motivated by
retaliation is purely conclusory. Plaintiff acknowledges that his step-daughter broke the rules.
The detention center has an understandable interest in keeping communication devices like cell
phones out of the facility. Plaintiff simply cannot show that but-for Defendant’s retaliatory
motive, his visitation would not have been cancelled. Because Plaintiff has failed to state a
viable retaliation claim against Defendant Hernandez, this claim should be dismissed.
Notably, the Fifth Circuit has recently stated that, “antecedent to the merits,” a question
remains as to whether a Bivens remedy is even available in this context. See Brunson v. Nichols,
875 F.3d 275, 279 n.3 (5th Cir. 2017) (“It appears that we have never framed as a holding a rule
that Bivens extends to First Amendment retaliation cases, but we have at times assumed that
substantive claims under § 1983 and Bivens are coextensive. We have on more than one
occasion assumed that Bivens supplies a remedy in similar cases. But in [Ziglar v. Abbasi,---U.S.

, 137 S. Ct. 1843, 1857 (2017)], the Supreme Court strongly cautioned against

extending Bivens to new contexts.17 A First Amendment claim is likely a new context.” [internal
citations omitted]).

17 In Ziglar, the Supreme Court recognized only three valid contexts for Bivens cases. First, in Bivens itself, the
Supreme Court permitted a damages remedy to compensate persons injured by federal officers in violation of the
Fourth Amendment’s prohibition against unreasonable searches and seizures. Id. at 1854 (citing Bivens v. Six
Unknown Fed. Narcotics Agents 403 U.S. 388, 397 (1971)). Second, in Davis v. Passman, the Supreme Court
allowed a Bivens remedy for a Fifth Amendment gender-discrimination case. 442 U.S. 228 (1979). Finally,
in Carlson v. Green, the Supreme Court recognized a Bivens remedy for an Eighth Amendment claim for cruel and
unusual punishment. 446 U.S. 14 (1980). Outside of these three unique circumstances, the Supreme Court views
new Bivens claims with disfavor. Ziglar, 137 S.Ct. at 1857. For over 30 years the Supreme Court has consistently
refused to extend Bivens into new contexts. Id. (citing Correctional Services Corp. v. Malesko, 534 U.S. 61, 68
(2001)).

31

Case l:16-cv-00164-C Document 58 Filed 11/29/18 Page 32 of 32 PagelD 588
III. CONCLUSION
For the foregoing reasons, it is ORDERED that

0)

Plaintiffs claims for excessive use of force against Defendants ICEA1 and

ICEA2 are SEVERED and TRANSFERRED to the United States District Court for the Eastern
District of New York.
(2)

All of Plaintiff s claims, except his claims that he was subjected to retaliation by

Defendants Rowden and Villegas, should be DISMISSED WITH PREJUDICE pursuant to 28
U.S.C. § 1915(e)(2)(B)(ii).
(3)

As specified above, Plaintiff is entitled to service of process on his claims that he

was subjected to retaliation by Defendants Rowden and Villegas. The Court will direct such
service by separate order.
SO ORDERED.
There is no just reason for delay in entering a final judgment and final judgment shall be
entered as to the claims dismissed above pursuant to Federal Rule of Civil Procedure 54(b).
Judgment shall be entered accordingly.

/

//

Signed November

2018.

/

f/

/

/

■

/

/

CUMMINGS
R UMTTE^ STATES DISTRICT JUDGE

i

\i

32

Case l:16-cv-00164-C Document 70 Filed 12/31/18

Page 1 of 3 PagelD 614

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
ABILENE DIVISION
IVAN VETCHER,
Plaintiff,

§
§

§

§

v.

§

DUSTY ROWDEN, et al,

Defendants.

CIVIL ACTION NO. 1:16-CV-0164-C

§
§
§
§
§
§

ORDER
The Court entered an Order and Judgment dismissing some of Plaintiff s claims pursuant
to Federal Rule of Civil Procedure 54(b) on November 29, 2018. Now before the Court is
Plaintiff s “Motion to Amend Judgment Under FRCP 52 and Leave to Amend Under FRCP 15,”
filed on December 27,2018. Plaintiff requests that the Court amend both its findings and its
judgment. Additionally, Plaintiff requests permission to amend his complaint to add new claims
and new defendants.
Motion to Alter or Amend Judgment
The Court applies the same standard to motions brought under Rule 52(b) and motions
brought under Rule 59(e). See Interstate Fire & Cas. Co. v. Catholic Diocese of El Paso, 622 Fed,
App’x 418, 420 (5th Cir. 2015). A motion to alter or amend a judgment under Rule 59(e) must
“clearly establish either a manifest error of law or fact or must present evidence that is newly
discovered.” Ross v. Marshall, 426 F.3d 745, 763 (5th Cir. 2005) (quoting Simon v. United States,
891 F.2d 1154, 1159 (5th Cir. 1990)). “Relief under Rule 59(e) is also appropriate when there has
been an intervening change in controlling law.” Schiller v. Physicians Res. Grp. Inc., 342 F.3d
563, 567 (5th Cir. 2003). A Rule 59(e) motion “is not the proper vehicle for rehashing evidence,

Case l:16-cv-00164-C Document 70 Filed 12/31/18 Page 2 of 3 PagelD 615

legal theories, or arguments that could have been offered or raised before the entry of judgment.”
Templet v. HydroChem Inc., 367 F.3d 473, 479 (5th Cir. 2004). “Reconsideration of a judgment
after its entry is an extraordinary remedy that should be used sparingly.” Id. (citing Clancy v.
Emp ’rs Health Ins. Co., 101 F. Supp. 2d 463,465 (E.D. La. 2000)).
In his Motion, Petitioner rehashes the arguments he raised in his Amended Complaint,
which were thoroughly addressed by the Court in the November 29, 2018 Order. Although
Petitioner disagrees with the Court’s decision, he has failed to demonstrate an error in fact or law,
present newly discovered evidence, or assert an intervening change in controlling law to support
the relief he seeks. Accordingly, after consideration of the motion and review of the underlying
materials in this case, the Court concludes that the motion should be DENIED.
Motion to Amend the Complaint
Plaintiff also seeks leave to amend his Complaint to add new claims and defendants.
Plaintiff requests to add new defendants and facts to support his claim that that the law library at
RPRJDC was deficient. He also raises entirely new claims of excessive use of force and retaliation,
which he alleges occurred at the “JCJ”1 between March 2017 and June 2018.
To the extent that Plaintiff seeks to supplement his access-to-courts claim with newly
named defendants and additional facts, the Court finds that such request should be DENIED as
untimely. Plaintiff has not shown good cause for failing to provide the supplemental information
or for failing to name the proposed new defendants sooner.
To the extent that Plaintiff seeks to add entirely new claims and defendants from the JCJ,
the Court finds that Plaintiffs new claims do not relate back to the claims raised in the instant civil

'Plaintiff provides this abbreviation without giving the full name; however, based on Plaintiffs previous filings, the
Court assumes that Plaintiff is referring to the Johnson County Law Enforcement Center or Johnson County Jail.
2

Case l:16-cv-00164-C Document 70 Filed 12/31/18 Page 3 of 3 PagelD 616

action. Accordingly, the Court finds that such request should be DENIED without prejudice to
Plaintiffs right to raise such claims in a properly filed new complaint in the appropriate venue.
SO ORDERED.

)

y

A

Dated December

, 2018.

/
■

/

i

y\

W/s‘{
/

SAMJR/CUPMINGS
ites District Judge
Senior Unit

I

3

•h

Case: 19-10156

Document: 00515727974

Page: 1

Date Filed: 02/01/2021

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

February 01, 2021
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW
Regarding:

Fifth Circuit Statement on Petitions for Rehearing
or Rehearing En Banc

No. 19-10156

Vetcher v. Img and Customs Enforcement
USDC No. 1:16-CV-164

Enclosed is a copy of the court's decision.
The court has entered
judgment under Fed. R. App. P. 36. (However, the opinion may yet contain
typographical or printing errors which are subject to correction.)
Fed. R. App. P. 39 through 41, and 5th Cir. R. 35, 39, and 41 govern
costs, rehearings, and mandates.
5th Cir. R. 35 and 40 require you to
attach to your petition for panel rehearing or rehearing en banc an
unmarked copy of the court's opinion or order.
Please read carefully
the Internal Operating Procedures (IOP's) following Fed. R. App. P. 40
and 5™ Cir. R. 35 for a discussion of when a rehearing may be appropriate,
the legal standards applied and sanctions which may be imposed if you
make a nonmeritorious petition for rehearing en banc.
Direct Criminal Appeals.
5th Cir. R. 41 provides that a motion for a
stay of mandate under Fed. R. App. P. 41 will not be granted simply upon
request.
The petition must set forth good cause for a stay or clearly
demonstrate that a substantial question will be presented to the Supreme
Court. Otherwise, this court-may deny the motion and issue the mandate
immediately.
Pro Se Cases.
If you were unsuccessful in the district court and/or on
appeal, and are considering filing a petition for certiorari in the
United States Supreme Court, you do not need to file, a motion for stay
of mandate under Fed. R. App. P. 41.
The issuance of the mandate does
not affect the time, or your right, to file with the Supreme Court.
Court Appointed Counsel.
Court appointed counsel is responsible for
filing petition(s) for rehearing(s) (panel and/or en banc) and writ(s)
of certiorari to the U.S. Supreme Court, unless relieved of your
obligation by court order. If it is your intention to file a motion to
withdraw as counsel, you should notify your client promptly, and advise
them of the time limits for filing for rehearing and certiorari.
Additionally, you MUST confirm that tnis information was given to your
client, within the body of your motion to withdraw as counsel.

Case: 19-10156

Document: 00515727974

Page: 2

Date Filed: 02/01/2021

Sincerely,
LYLE W. CAYCE, Clerk

-f
By:
Nancy F. Dolly, Deputy Clerk
Enclosure(s)
Ms. Ann Elizabeth Cruce-Haag
Mr. Brian Walters Stoltz
Mr. Ivan Alexandrovich Vetcher

Additional material
from this filing is
available in the
Clerk's Office.

